September 30, 1999

JOHN A. RAPP
VICE PRESIDENT, FIELD OPERATIONS SUPPORT

WILLIAM J. DOWLING
VICE PRESIDENT, ENGINEERING

RUDOLPH K. UMSCHEID
VICE PRESIDENT, FACILITIES

JOHN H. WARD
VICE PRESIDENT, CONTROLLER

Subject:   Removal of Underground Storage Tanks
           (Report Number CA-AR-99-002)

This report represents the results of our review of the Removal of Underground Storage
Tanks (Project Number 99RA007CA000). The report addresses our concerns related to
the overall process.

The audit revealed that the process for removing underground storage tanks needed
improvement. USPS made the decision to install, upgrade, and then remove compliant
underground storage tanks without adequate planning and cost-benefit analysis,
resulting in premature and unnecessary expenditures. Management agreed with our
recommendations and has initiatives in progress and planned to address the issues in
this report. Management's comment and our evaluation of these responses are
included in the report.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions or need additional information, please contact Kim H. Stroud,
Director, Contracts, or me at (703) 248-2300.



Sylvia L. Owens
Assistant Inspector General
 for Revenue/Cost Containment

Attachment
cc: John E. Potter
    Norman E. Lorentz
    Office of Deputy Postmaster General
    M. Richard Porras
    John R. Gunnels
    Alan B. Kiel
                            TABLE OF CONTENTS
Part I

Executive Summary                                        i

Part II

Introduction                                             1
    Background                                           1
    Objective, Scope, and Methodology                    1

Audit Results

   Underground Storage Tank Database                     3
   Recommendation                                        3
   Management's Comments                                 4
   Evaluation of Management's Comments                   4

   Cost-Benefit Analysis                                 5
   Recommendation                                        5
   Management’s Comments                                 5
   Evaluation of Management’s Comments                   5

   Fiscal Administration--Capital vs. Expense Projects   6
   Recommendation                                        8
   Management’s Comments                                 8
   Evaluation of Management’s Comments                   8

   Removal of Underground Storage Tanks                   9
   Recommendations                                       10
   Management’s Comments                                 11
   Evaluation of Management’s Comments                   11

Other Matters

   Project Funding                                       12
   Non-Compliant Tanks                                   12

Appendices
  Appendix A – Statistical Design and Analysis           13
  Appendix B – Management’s Comments                     15
                                       EXECUTIVE SUMMARY
  Introduction                     We performed an audit to evaluate the process for
                                   removing regulated fuel underground storage tanks.1[1]

                                   In 1988, the U.S. Environmental Protection Agency issued
                                   requirements for leak detection and prevention for all
                                   underground storage tanks containing regulated
                                   substances.2[2] In response to the Environmental Protection
                                   Agency’s requirements, the United States Postal Service
                                   (USPS) developed policies and guidelines, and funded a
                                   program to comply with federal, state, and local
                                   environmental laws.

                                   During the audit, we examined records for the period
                                   January 1990 through June 1999.

  Results in Brief                 We concluded that the process for removing underground
                                   storage tanks needed improvement. Our audit showed
                                   that, in some instances, USPS management removed
                                   compliant underground storage tanks and used commercial
                                   fueling as an alternative. As a result, the USPS incurred
                                   unnecessary expenditures.

                                   We identified the following areas of concern during our
                                   audit. Specifically:

                                   •   • Accuracy was not verified before data was entered in
                                       the Facilities Management System-Windows3[3] and the
                                       Environmental Management Information System storage
                                       tank module.

                                   •   • Cost-benefit analysis was not accomplished before
                                       removing tanks.

                                   •   • Based on the statistical sample, 91 sites improperly
                                       capitalized $4.7 million for tank removal and
                                       replacement.
1[1]
    An underground storage tank is one whose volume (including ancillary piping) is 10 percent or more beneath the
surface of the ground. Under federal regulations, regulated underground storage tanks do not include tanks used for
storing heating oil for consumptive use on the premises. However, some states have expanded their underground
storage tank regulations to cover heating oil underground storage tanks used for consumptive use on the premises.
(Management Instruction, AS-550-95-9).
2[2]
       Requirements issued in 40 CFR, parts 280 and 281.
3[3]
   Facilities Management System-Windows (FMS-WIN) provides the data repository for transactions related to
Facilities business functions and activities. We did not verify the integrity of the database.
                  •   • About $1.5 million was spent for premature removal
                      of tanks.

                  •   • Managers used compliance funds to remove tanks
                      already in compliance.

                  •   • Non-compliant tanks were installed, resulting in
                      unnecessary expenditures of almost $200,000.

                  USPS management needs to revise, clarify, and rewrite the
                  Management Instructions and policy on underground
                  storage tanks. This will assist managers in making cost-
                  effective and sound business decisions relating to the
                  utilization and administration of underground storage tanks.

Summary of        We made four recommendations to the Vice Presidents,
Recommendations   Field Operations Support, Facilities, Engineering, and
                  Controller to improve the accuracy of information and
                  adhere to policy on underground storage tanks. Specific
                  recommendations are contained in the body of this report.

Summary of        Management agreed with the recommendations.
Management’s      Management stated that they will take corrective action to
Comments          improve the current process for validating and ensuring the
                  accuracy of information entered into the underground
                  storage tanks databases. Also, management will
                  reemphasize and strengthen existing policy outlined in
                  Management Instructions on underground storage tanks
                  when future decisions involve installation, replacement or
                  removal of tanks. In addition, management stated they
                  have already made adjustments to capitalized projects
                  totaling $4.7 million that should have been expensed.
                  Management booked $4.7 million in fiscal year (FY) 1999 as
                  impaired assets. Currently, management is performing a
                  further review in this area and will make adjustments to the
                  impaired asset amount, as appropriate. Management’s
                  comments are included in their entirety in Appendix B of this
                  report.

Evaluation of     Management's planned or implemented actions are
Management's      responsive and address the issues identified in this report.
Comments
                                               INTRODUCTION
  Background                          The Office of Inspector General (OIG) conducted an audit
                                      of the United States Postal Service process for removing
                                      regulated fuel (gasoline or diesel) underground storage
                                      tanks. This report highlights the results of our audit and
                                      offers recommendations for improvement.

                                      In 1988, the U.S. Environmental Protection Agency issued
                                      requirements for leak detection and prevention for all
                                      underground storage tanks containing regulated
                                      substances.4[4] The regulations stipulated that underground
                                      storage tanks installed before December 22, 1988, be
                                      protected against corrosion, spills, and overfills by
                                      December 22, 1998.

                                      In response to the Environmental Protection Agency's
                                      requirements, USPS developed policies and guidance to
                                      ensure that Postal facilities complied with federal, state, and
                                      local environmental laws.

                                      To ensure compliance with the Environmental Protection
                                      Agency's requirements, USPS Headquarters developed
                                      Management Instructions on underground storage tank
                                      systems and administration. Headquarters Facilities
                                      developed fiscal year funding requirements, through Budget
                                      Account Finance Number 7F 10-0240, to properly maintain
                                      underground storage tanks and to promptly and
                                      appropriately remedy leaking tank systems.5[5]

  Objective, Scope, and               The overall objective of our audit was to evaluate the USPS
  Methodology                         process for removing, upgrading, and replacing regulated
                                      fuel underground storage tanks. We reviewed various
                                      USPS policies and guidance, interviewed management and
                                      operating officials, reviewed contract and tank files,
                                      analyzed information, obtained system documentation, and
                                      reviewed various management reports. We conducted
                                      audit fieldwork at USPS Headquarters and facilities located
                                      in Texas, Louisiana, Georgia, and Florida.




4[4]
       Requirements issued in 40 CFR, Parts 280 and 281.
5[5]
       Management Instruction, AS-510-88-14, Sections I. Policy and IV. Budget and Fiscal Administration
We performed a two-stage random sample to select Postal
facilities in the Southwest and Southeast areas (see
Appendix A, Statistical Design and Analysis, for details).
Our sample consisted of the 25 sites where Area
management made the decision to remove underground
storage tanks after January 1, 1990.

 This audit was conducted from December 1998 through
August 1999 in accordance with generally accepted
government auditing standards and included such tests of
internal controls as we considered necessary under the
circumstances. We discussed our conclusions and
observations with appropriate management officials and
included their comments, where appropriate.
                             AUDIT RESULTS
Underground Storage   USPS personnel did not record accurate information in the
Tank Database         Facility Management System-Windows and the
                      Environmental Management Information System. As a
                      result, managers had been basing underground storage
                      tank decisions on inaccurate or incomplete information.
                      Underground storage tank projects at Postal facilities in the
                      Southeast and Southwest areas are recorded in the
                      Environmental Management Information System. We
                      reviewed information dated March 18, 1999, to identify the
                      tanks at each site and compared the data to the Facilities
                      Management System--Windows Project Listing, dated
                      March 12, 1999. Both systems contained inaccurate
                      information on the status of tanks in our sample.

                      We found differences such as tank type, capacity of tank
                      and number of tanks, etc., in the Environmental
                      Management Information System. The status of tanks was
                      incorrect for 10 of the 23 sites reviewed.

                      In addition, the Facilities Management System--Windows
                      Underground Storage Tank Program Project Listing did not
                      reflect an accurate description of the project. For example:

                      •   • three removal projects were listed as “replacement or
                          upgrade”;
                      •   • seven removal projects were listed as “UST”; and
                      •   • one upgrade project was listed as a “replacement.”

                      Most of the problems we identified occurred because USPS
                      officials did not verify the accuracy of information before
                      entering the data.

                      USPS managers need accurate information to make
                      decisions on underground storage tanks.

Recommendation        The Vice President, Engineering, and Vice President,
                      Facilities, should:

                      1. 1. Direct appropriate USPS personnel to verify the
                         completeness and accuracy of information entered into
                         the Facilities Management System--Windows and the
                         Environmental Management Information System storage
                         tank module database.
Management’s    Management agreed with the recommendation and stated
Comments        that they are relieving the current contractor of oversight
                responsibility and assigning the responsibility for validating
                and ensuring the accuracy of information entered into the
                underground storage tanks databases to the Area District
                Environmental Compliance Coordinators. A memo to the
                field expressing this change will be sent by November 1999.
                This will be followed by a revision to the Management
                Instruction within the next six months.

Evaluation of   Management's comments are responsive to our
Management’s    recommendation.
Comments
  Cost-Benefit Analysis            Most of the sites we visited did not perform or document
                                   cost-benefit analysis before removing tanks. Based on
                                   Headquarters’ correspondence dated, June 25, 1990, and
                                   USPS policies, Management Instruction, AS-550-95-9, and
                                   Facilities Bulletin, FPA-95-2, recommendations for
                                   underground storage tank removal or upgrade to meet 1998
                                   requirements must be in accordance with the Decision Tree
                                   Flowchart and Cost-Benefit Model.6[6]

                                   Responsible personnel told us the primary factors that Area
                                   managers considered when deciding to remove tanks were
                                   potential liability and, in some instances, Headquarters’
                                   funding, instead of local funding. Consequently, the
                                   decision to remove underground storage tanks was made
                                   without considering the economic and operational impact at
                                   each site. A cost-benefit analysis needs to be
                                   accomplished to identify economic and operational
                                   alternatives before replacing or removing underground
                                   storage tanks.

  Recommendation                   The Vice President, Field Operations Support, in
                                   coordination with the Vice President, Facilities, should:

                                   2. 2. Direct appropriate USPS officials to accomplish a
                                      cost-benefit analysis as outlined in existing underground
                                      storage tank policy.

  Management’s                     Management agreed with the recommendation and stated
  Comments                         that the Vice President, Field Operations Support, will
                                   require justification, including a cost-benefits analysis, when
                                   considering future tank removal decisions.

  Evaluation of                    Management's comments are responsive to our
  Management’s                     recommendation.
  Comments




6[6]
   Two cost-benefit models were distributed for nationwide use: (1) 1990 Lotus software -- upgrading/replacing
existing underground storage tanks versus purchasing fuel from retail outlets, and (2) 1995 “Fillerup Software
Application User’s Guide” which originated in the Northeast Area.
  Fiscal                          Underground storage tank removal projects in the
  Administration--                Southwest Area were capitalized when they should have
  Capital vs. Expense             been expensed. Based on our sample, we project that 91
  Projects                        sites in the Southwest Area capitalized removals totaling
                                  $4.7 million that should have been expensed. As a result,
                                  expenses were understated and assets were overstated in
                                  accounting records. The Southeast Area properly expensed
                                  all their tank removal projects.

                                  Complete underground storage tank replacement projects,
                                  including the costs of site excavation, removal of old tanks,
                                  and purchase and installation of new tanks are considered
                                  capital expenses and must be depreciated over a 10-year
                                  life.7[7] However, removals without replacement are
                                  considered expense projects.

                                  The Southwest Area capitalized 8 of the 13 removal
                                  projects, totaling $366,779, that should have been
                                  expensed—3 in 1992 and 5 in 1997 and 1998. Of those
                                  eight, three were capitalized as repairs and alterations.
                                  Based on Headquarters' correspondence, dated
                                  June 23,1989, “In no case should tanks be charged to real
                                  property of a facility. This action would result in tanks
                                  having a depreciation rate based on the remaining service
                                  life of the facility. Accounting wise, in numerous cases,
                                  removed tanks would not be fully depreciated if replacement
                                  was necessary.”

                                  The Facilities Management System--Windows Project
                                  Listing shows that for the period January 1, 1990 through
                                  March 12,1999, the following funds were spent on
                                  underground storage tank projects:

                                                                    Capitalized                 Expensed

                                  Southwest Area                    $8,962,548                $11,006,295
                                  Southeast Area                   7,100,5048[8]              5,371,2299[9]




7[7]
     Management Instructions AS-550-95-9 and AS-550-88-14, Underground Storage Tank Management.
8[8]
     This amount contains expensed dollars that were incorrectly capitalized.
9[9]
     This amount may be underestimated as we found 3 of 23 removal projects were capitalized as Repair and
Alterations projects.
                                          Removals Capitalized versus Expensed


                                        6
                                        5
                                        4                                                           Capitalized
                             # of tanks 3                                                           Expensed
                                            2
                                            1
                                            0
                                                   Louisiana                 Texas


                                    The Southwest Area has removed all of their federally
                                    regulated underground storage tanks. The Southeast Area
                                    has 64 regulated underground storage tanks remaining.10[10]

                                    Our limited review of the Facilities Management System--
                                    Windows Project Listing for the entire population of the
                                    Southwest Area reflected about 55 sites (19 in 1997)
                                    totaling about $2.5 million for the period 1992 through 1997.
                                    However, most of the 55 projects were listed as UST
                                    (Underground Storage Tank) Removal on the Program
                                    Project Listing for capital funding. Other sites might have
                                    used other language to capitalize similar projects.

                                    Based on our statistical sample, we project that 91 sites
                                    capitalized removals totaling $4.7 million that should have
                                    been expensed. Capitalizing a tank removal results in
                                    overstated assets and understated expenses for the year in
                                    which they occur.

                                    New tanks must be depreciated over a 10-year period.
                                    Premature removal without an expense entry results in an
                                    overstatement of capital and understatement of expenses
                                    the year they were removed.11[11] Based on interviews with
                                    field and headquarters’ personnel, projects were capitalized
                                    as real property over the life of the building.



10[10]
       National Federal Underground Storage Tank Compliance Report dated July 29, 1999, from the Facilities
Management System, Environmental Management Information System module.
11[11]
       This assumption is predicated on the fact that they were depreciating new tank installations according to the
Management Instruction, AS-510-88-14 using Postal Control Number 6030.20.
Recommendation   The Vice President, Controller, should:

                 3. 3. Ensure the Manager, Corporate Accounting, and
                    Southwest Manager, Finance, review capitalized
                    underground storage tank projects and reclassify, if
                    appropriate.

Management’s     Management agreed with the recommendation and stated
Comments         that they have already made adjustments to the capitalized
                 projects that should have been expensed. Management
                 booked the $4.7 million identified during the period of
                 January 1,1990 through March 12, 1999, in FY 1999 as
                 impaired assets. Currently, management is performing a
                 further review in this area and will make adjustments to the
                 impaired asset amount, as appropriate.

Evaluation of    Management's comments are responsive to our
Management’s     recommendation.
Comments
 Removal of                    Excessive costs were incurred when fuel tanks were
 Underground Storage           removed before the end of their useful life. The 1986 and
 Tanks                         1988 Management Instructions12[12] required that tanks be
                               designed to have a minimum 30-year life, depreciated over
                               a 10-year period. We excluded 2 of the 25 sites that had
                               heating oil tanks. Of the remaining 23 sites, 13 of the tanks
                               were removed prior to the 10-year depreciated life.

                                                   Tank Removal Sample

                                       6
                                       5
                                                                                    0-5 years
                                       4
                        # of tanks                                                  5-10 years
                      rem oved early   3
                                       2
                                       1
                                       0
                                           Louisiana   Texas       Georgia      Florida
                                            5 tanks    8 tanks     4 tanks      6 tanks



                               From the statistical sample data cited above, we project that
                               188 sites (60.6 percent) in the Southeast and Southwest
                               Area removed tanks that were 10 years or less in age.

                                One of the sample sites installed a tank in 1989. However,
                                the tank was never used, and was filled with water instead
                                of fuel, in order to keep it from rising to the surface. An
                                attempt to upgrade the tank in 1991 was unsuccessful
                                because it had rusted. Consequently, officials removed the
                                tank in 1993.




12[12]
    Management Instructions AS-510-86-2 New Underground Storage Tank Systems, and AS-510-88-14,
Underground Storage Tank Management
                  Our audit also disclosed that, from the period January 1990
                  through February 1999, several facilities installed or
                  upgraded tanks and later removed them, resulting in
                  additional costs as follows:

                   No. of
                  Facilities         Description         Installation   Upgrade     Remove

                      4        Install & Remove          $937,810                   $178,408

                      2        Install w/bldg & Remove   Unknown                      78,933

                      6        Upgrade & Remove                         $172,585    215,329

                               Subtotal                  $937,810       $172,585    $472,670

                                                                            Total: $1,583,065

                  Tanks were prematurely removed because Management
                  Instruction, AS-550-95-9, gave area managers a great deal
                  of discretion. Managers did not justify or document tank
                  replacement decisions as required. Because tank
                  replacement was funded by Headquarters, Southwest Area
                  made the decision to remove all tanks.

Recommendations   The Vice President, Field Operations Support, in
                  coordination with the Vice President, Facilities, should:

                  4. 4. Require area management to establish an
                     operational need prior to installing an underground
                     storage tank, and an operating plan to ensure the tank(s)
                     are maintained and remain in compliance with
                     regulations.

                  5. 5. Require area management to prepare an adequate
                     plan, supported by a decision analysis, before installing,
                     replacing, or removing fuel storage tanks.
Management’s    Management agreed with the recommendations and stated
Comments        that the Vice President, Field Operations Support, will
                require documentation from area management justifying the
                need along with submission of the operating plan prior to
                the installation of underground storage tanks. In addition,
                area management will be required to submit adequate
                documentation of their plan and a quantifiable decision
                analysis to support their proposal.

Evaluation of   Management's comments are responsive to our
Management’s    recommendations.
Comments
                                          OTHER MATTERS
 Project Funding                     Headquarters’ funds were used to remove compliant tanks
                                     with finance number 10-0240. These funds were to be
                                     used for testing, repair, replacement, cleanup, and
                                     monitoring. However, the funding was not intended for
                                     existing tanks already in compliance.

                                     Four facilities used compliance funding for other purposes.
                                     Compliant tanks were installed and/or upgraded and then
                                     removed with compliance funds totaling over $219,000.

                                     The Southwest Area requested additional funding to
                                     remove 24 compliant tanks. Headquarters Facilities issued
                                     a deviation from Headquarters policy and provided funding
                                     to the Southwest Area to remove 24 compliant tanks.

 Installation of Non-                Excessive costs were incurred because single-wall tanks
 Compliant Tanks                     were installed that had to be replaced. With the issuance
                                     of the 1986 Management Instruction,13[13] new tanks were
                                     required to be double-wall to meet Postal standards. USPS
                                     Facilities installed single-wall (USPS non-compliant) tanks
                                     at three of our sample sites after the issuance of the
                                     Management Instruction. Additional costs of almost
                                     $200,000 were later incurred to upgrade and remove the
                                     tanks.




13[13]
         Management Instruction AS-510-86-2, New Underground Storage Tank Systems
           APPENDIX A: STATISTICAL DESIGN AND ANALYSIS

We designed a two-stage sampling process for this audit. The population consisted of
just two Postal Areas, the Southeast and the Southwest. The Southeast Area consisted
of 5 states, 166 sites with underground storage tanks; the Southwest Area consisted of
4 states, 144 sites; thus we included 310 sites over 9 states in our sample. At the first
stage, we selected four states out of nine in the population using sampling with
probability proportional to size. States selected and the number of sites available
follows:

                            State               Sites
                            Florida              95
                            Georgia              33
                            Louisiana            21
                            Texas               110
                              Total Sites       259

In the second stage we randomly selected 25 sites. The specific number of sites by
state follows:

                            State               Sites
                            Florida               7
                            Georgia               5
                            Louisiana             5
                            Texas                 8
                              Total Sites       25

From this sample of sites within states, we projected two attributes and one monetary
estimate:

Attribute 1:   Percent and number of sites with tanks removed, 10 years old or less.

       Percent Point Estimate:                                60.6%
       Precision of Estimate with 90% Confidence:         ±   44.9%

       Number of Sites Projected:                             188
       Precision of Projection with 90% Confidence:       ±   139
Attribute 2:   Percent and Number of Sites with Removal Amounts Improperly
Capitalized

       Percent Point Estimate:                             35.1%
       Precision of Estimate with 90% Confidence:      ±   15.6%

       Number of Sites Projected:                           91
       Precision of Projection with 90% Confidence:    ±   40

Monetary Estimate: Projected Dollars Improperly Capitalized from Removal Projects

       Point Projection:                                   $4.70 million
       Precision of Projection with 90% Confidence:    ±   $2.95 million
Major Contributors   James Williams
to This Report       Sandra Prejsner
                     Dr. Frank Ponti
                     Latesha Campbell
                     Stacey Findley
                     Kim H. Stroud
